Office of Inspector General
    Audit Report


NEW APPROACHES ARE NEEDED
    TO STRENGTHEN FAA
 OVERSIGHT OF AIR CARRIER
  TRAINING PROGRAMS AND
    PILOT PERFORMANCE
    Federal Aviation Administration

     Report Number: AV-2012-027
    Date Issued: December 20, 2011
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: New Approaches Are Needed To                       Date:    December 20, 2011
           Strengthen FAA Oversight of Air Carrier Training
           Programs and Pilot Performance
           Federal Aviation Administration
           Report Number AV-2012-027

  From:    Jeffrey B. Guzzetti                                     Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           For more than a decade, the National Transportation Safety Board (NTSB) has
           called for the Federal Aviation Administration (FAA) to incorporate safety
           improvements impacting pilot performance and professionalism. NTSB
           determined that the cause of the fatal 2009 crash of Colgan Air flight 3407 was
           due in part to pilot failure to follow appropriate procedures. In June 2009,
           4 months after the crash, FAA announced its Call to Action Plan, which included
           10 short- and mid-term initiatives to enhance pilot performance and training,
           increase air carrier participation in voluntary safety programs, and expand pilot
           records review.

           The Senate Committee on Commerce, Science, and Transportation and the House
           Committee on Transportation and Infrastructure requested that we review FAA’s
           oversight of airline pilot training programs to determine whether pilot training is
           up to date, and to what extent FAA can verify pilots are receiving appropriate
           training. The Committees also requested that we determine what actions apply
           when pilots repeatedly fail training or other tests, what information pilots must
           provide airlines when hired, and whether this information is sufficient to verify
           pilot employment and training. This request was also reiterated by Representatives
           Louise Slaughter and Brian Higgins. This report provides the results of our audit
           to (1) assess FAA’s oversight of air carrier pilot training and proficiency programs
           and (2) examine the data FAA maintains on pilots’ qualifications and past
           performance and the process air carriers use to obtain these data when hiring.
                                                                                                                        2


To conduct our work, we visited 18 air carriers, 18 FAA inspection offices, and
interviewed 60 inspectors and managers. We conducted this review between
October 2009 and October 2011 in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology,
including lists of the air carriers and FAA offices we visited or contacted.

RESULTS IN BRIEF
FAA’s oversight of air carriers’ pilot training and proficiency programs lacks the
rigor needed to identify and track poor performing pilots and address potential
program risks. These oversight gaps are largely due to inadequate FAA guidance
and policies for tracking and gathering data on pilots who fail proficiency tests.
Further, FAA has not sufficiently trained inspectors on how to evaluate air
carriers’ basic training assessments, such as check rides. 1 Finally, FAA has not
ensured that its inspectors are prepared to oversee air carriers’ use of a new data-
driven proficiency-based system for training and evaluating pilots.

FAA maintains extensive pilot information that air carriers can use to evaluate the
competence and qualifications of pilots; however, its current request process
hinders air carriers’ ability to easily obtain all relevant data. Three factors
contribute to this failure. First, air carriers must contact two different offices
within FAA to obtain all pilots’ records. Second, the Agency lacks a centralized
process for receiving and responding to pilot record requests, raising doubt as to
whether air carriers are getting all the relevant information FAA has on pilots
before they are hired. Finally, the Agency did not confirm that air carriers
followed through on commitments to expand pilot records requests for new hire
pilots.

We made seven recommendations to FAA to improve its oversight of air carrier
pilot training and pilot performance.

BACKGROUND
All Part 121 2 air carriers—whether mainline or regional—must have an FAA-
approved pilot training program. FAA is responsible for ensuring that regulatory
requirements are met and that the air carrier’s pilots can competently perform their
assigned duties. The Colgan accident highlighted differences between the hiring,
training, and safety programs of most regional and mainline carriers even though
they are under the same regulations and oversight system. For example, mainline

1
    Check rides, or practical flight examinations conducted by either FAA inspectors or FAA-approved designees to
    determine pilot proficiency, are a crucial aspect of pilot training programs and ensuring safety.
2
    14 CFR Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations. Mainline air carriers are
    major airlines that generally operate aircraft seating 100 or more passengers. Regional air carriers are airlines that
    generally operate aircraft seating 99 or fewer passengers.
                                                                                                                   3


carriers typically hire more experienced pilots from the military or the regional
airlines, whereas regional airlines usually hire pilots with fewer flight hours from
flight training schools and Part 135 3 or corporate business operators.

Air carriers have the option of following either traditional pilot training
programs—which include minimum standards for training hours, curriculum, and
required flight maneuvers—or the Advanced Qualification Program (AQP), a
proficiency-based alternative to traditional training. 4 Roughly two-thirds of Part
121 air carriers continue to conduct traditional training. The training is typically
conducted in a flight simulator (see Figure 1) and generally involves proficiency
checks of pilots’ knowledge and skills and flight training for pilots to practice
normal and advanced operations.

Figure 1. Airbus A320 Series Flight Simulator Used for Proficiency Checks




Source: Lufthansa Flight Training

Proficiency checks and flight training are taken alternately at prescribed intervals;
captains require more frequent flight training and evaluation exercises than first
officers (see Table 1).




3
    14 CFR Part 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules
    Governing Persons On Board Such Aircraft.
4
    14 CFR Part 121, Subparts N & O. Subpart N (§§ 121.400-.429) prescribes the requirements for establishing and
    maintaining a training program for crewmembers, aircraft dispatchers, and other operations personnel, and for the
    approval and use of training devices in the conduct of the program. Subpart O (§§ 121.431-.459) prescribes
    crewmember qualifications.
                                                                                                                     4


Table 1. Example of a Traditional Pilot Training Pattern for Captains and
First Officers

                                           6 Months           12 Months            18 Months          24 Months

Proficiency check                                                                     

Flight training                                                                                          

 Captain  First officer

Note: All pilots (captains and first officers) receive a proficiency check as part of their initial flight training.
In addition, captains are required to have an annual line check, which are typically performed during
scheduled commercial flights.


Air carriers can opt to use AQP training but must demonstrate that any departure
from the training standards prescribed in 14 CFR Part 121 provides an equivalent
or better level of safety. AQP incorporates data-driven quality control processes to
refine pilot training based on the individual’s proficiency and identified training
needs. By design, AQP training:

• employs innovative training and qualification concepts, such as flying in
  abnormal conditions and emergencies;
• increases opportunities to integrate with related airline safety databases and
  systems, such as Flight Operations Quality Assurance (FOQA) and Aviation
  Safety Action Program (ASAP); 5

• allows for standardized training across fleets and between instructors and
  evaluators within the airline; and

• provides access to resources of the larger AQP community, including free flow
  of information among carriers, annual industry meetings, and FAA resources.

The push towards implementing AQP for air carrier pilot training can be attributed
to a proposed rulemaking that enhances traditional training requirements by
requiring the use of flight simulators and including additional training and
evaluation requirements for pilots. While this rulemaking was first proposed in
2009, the Colgan Air crash accelerated the effort and set off a series of intense
debates and regulatory action between the airline industry and FAA (see Figure 2).




5
    FOQA programs collect and analyze digital flight data generated during normal operations to improve overall safety;
    ASAP encourages air carrier and repair station employees to voluntarily report safety information that may be
    critical to identifying potential precursors to accidents.
                                                                                                                      5


Figure 2. Timeline of Pilot Training Events and Legislation

 2009                                                             2010
 Jan 12         Feb 12     June 10-11          Jun 24             Jan 26          Feb 8              Aug 1




Crew Training    Colgan    Congressional    FAA Administrator FAA issues          New Pilot         Airline Safety
NPRM            accident   hearings on      mails Call to Action Call to Action   Certification     and FAA
released for               pilot training   letters to air       final report     for Air Carrier   Extension Act
comment                                     carriers & labor                      Operations        of 2010;
(SNPRM                                      groups                                ANPRM             mandates
issued May                                                                        released for      1,500 hours
20, 2011)                                                                         comment           for all airline
                                                                                                    pilots



FAA’S OVERSIGHT OF PILOT TRAINING PROGRAMS DOES NOT
EFFECTIVELY IDENTIFY AND TRACK POOR PERFORMING
PILOTS
FAA is not well positioned to assess air carriers’ pilot training programs—in part
because it has not prepared inspectors to effectively oversee pilots who have
performed poorly or failed training. While FAA guidance calls for inspectors to
promptly investigate pilot training evaluation failures and take corrective action, it
does not clearly define when inspectors should be notified of failures or at what
point surveillance should be enhanced. As a result, we found circumstances where
FAA inspectors did not enhance surveillance following multiple training failures.
FAA also lacks detailed guidance for air carriers to develop comprehensive
remedial training programs. Therefore, the Agency cannot effectively target
surveillance of pilots who experience difficulty in training or assess risk in air
carrier training programs.

FAA Inspectors Are Not Adequately Prepared To Monitor Pilot
Training Programs
FAA has not provided guidance to its inspectors on how to evaluate and track pilot
performance and training. For example, FAA requires inspectors to establish a
process for air carriers to notify FAA of pilots who perform unsatisfactorily during
training. However, FAA has not issued procedures or guidance for developing an
effective notification process. At 12 of the 18 FAA offices we visited, air carriers
notify inspectors of pilot training failures through informal email or telephone
exchanges. Moreover, only 5 of the 30 FAA inspectors we interviewed maintain
historical logs or tracking sheets for pilots who fail proficiency checks.

FAA guidance also calls for inspectors to promptly investigate identified
deficiencies in pilot training and take corrective action. However, more than half
of the inspectors we interviewed did not enhance surveillance of poor performing
                                                                                                                           6


pilots, or delayed enhanced surveillance until after two consecutive failures. As a
result, pilots could fail multiple proficiency checks but would not be subject to
increased oversight if the failures were not consecutive. While failing a single
proficiency check does not necessarily indicate systemic performance issues,
inspectors should be aware of these occurrences so they can enhance surveillance
when negative trends become apparent.

FAA also lacks standardized training for inspectors on how to evaluate pilots and
check airmen—pilots who are employed by air carriers to evaluate pilot
proficiency. To be certified to fly Part 121 aircraft, pilots must pass an oral exam
and a practical flying exam, or “check ride.” FAA inspectors new to the Agency
will perform or observe these tests for the first time without supervision or
guidance from more senior inspectors. In these cases FAA inspectors typically rely
on their prior experience and on-the-job training to conduct surveillance of these
exams. However, because check ride tests and pilot performance assessment
standards vary based on operational differences among air carriers, prior
experience may not provide FAA inspectors with sufficient knowledge to perform
check rides and observations of check airmen.

FAA Does Not Provide Sufficient Oversight of Pilot Performance
Check airmen perform the majority of proficiency checks on air carrier pilots.
While check airmen help supplement the Agency’s oversight resources, FAA
inspectors still have responsibility to oversee pilot training and address
unsatisfactory performance. FAA guidance states that when inspectors identify
pilot deficiencies, they should conduct a comparison of failure rates between
checks conducted by themselves and those conducted by check airmen. However,
inspectors seldom conduct proficiency checks themselves so comparative analysis
usually cannot be performed.

Check airmen are critical to ensuring pilots are well trained. However, FAA does
not renew their authority or observe them as frequently as it does Aircrew
Program Designees (APD)—air carrier pilots approved to act on behalf of FAA to
authorize pilot certification, such as issuing ratings for the type of aircraft the pilot
can fly (see Table 2). 6 Check airmen are evaluated every 24 months. In contrast,
APDs must renew their designation with FAA every 12 months. Specifically,
APDs are required to submit a renewal package to FAA that includes verification
of their qualifications, a record of their checking activity for the past year, and
certification that required training was completed. Further, APDs receive training
on FAA policies and procedures that check airman do not receive.


6
    A type rating is an addition to a pilot certificate that qualifies the pilot to fly a specific aircraft make and model. It
    requires additional training beyond the scope of initial licensure. In the United States this applies to aircraft heavier
    than 12,500 lbs, having a passenger capacity of more than nine, or being jet propelled.
                                                                                                                        7


Table 2. Key Differences in Check Airman and APD Oversight
Requirements and Duties
Qualification/Duty                                                                 Check Airman               APD
Current, Qualified, and Type Rated in Aircraft                                              X                   X

Perform Check Rides on Pilots                                                               X                   X

Observed by FAA                                                                           X                   X
                                                                                   (every 2 years)       (every year)
Authorized and Certified by FAA                                                             X                   X

Required Renewal of Designation                                                                               X
                                                                                                         (every year)
Conduct Airman Certifications on behalf of FAA and Issue Type                                                   X
Ratings to Pilots
Receive Training in FAA Policies and Certification Procedures                                                   X
Source: OIG analysis of FAA and air carrier information

FAA Is Not Capitalizing on Benefits of Air Carrier Remedial Training
Programs for Pilots
FAA inspectors do not incorporate inspections of remedial training programs into
their surveillance plans. Air carriers’ remedial training programs provide
additional oversight to ensure performance deficiencies are corrected. The
majority of air carriers we visited, 14 of 18 (77 percent), had these programs in
place. Through these programs, carriers can provide FAA inspectors with key
information for evaluating pilot performance and targeting risk in air carrier
training programs. Consequently, inspectors are missing opportunities to improve
training and overall air carrier safety and operations. For example:

• One-third of the carriers we visited did not review the training records of pilots
  who entered a remedial training program to identify unresolved performance
  problems. In its investigation of the Colgan crash, NTSB discovered that the
  captain had failed four FAA certification checks—the last of which occurred
  16 months before the crash. 7 Consistent with standard practice in the airline
  industry at the time, Colgan did not perform a comprehensive search of the
  airman’s full record and, therefore, was unaware of the captain’s previous
  failures.

• Of the 13 air carriers we asked, none had procedures in place to prevent two
  pilots in remedial training programs 8 from being paired together during

7
    The captain had failed three FAA certification checks prior to his employment with Colgan and one certification
    check for his initial upgrade to Captain at the air carrier.
8
    At the air carriers we visited, the number of pilots in remedial training represented on average less than 5 percent of
    the overall pilot population at each air carrier.
                                                                                                                             8


       scheduled commercial flights. According to air carrier representatives, pilots in
       remedial training are still current and qualified to fly the aircraft. However,
       FAA instituted a regulation—referred to as the “green-on-green” rule—to
       prevent pilots with less than 75 hours in an aircraft type from flying together in
       commercial operations 9 after it determined there were inherent risks in pairing
       low-time pilots. The Agency determined that this rule was necessary because
       of accidents and incidents that had occurred at least in part because of
       inexperienced flight crews.

• Two pilots with repeated failures and remedial training were effectively
  absolved from scrutiny when the air carrier downgraded them from captain to
  first officer. While the FAA inspector maintained emails from the carrier
  documenting the failures and remediation, the pilots were removed from the
  carrier’s tracking roster and their training cycles were reset when they were
  downgraded. Ultimately, the inspector took no further action to observe the
  pilots or reevaluate the carrier’s program to determine whether the downgraded
  pilots should receive additional oversight in the interest of safety.

• One air carrier we visited failed to sufficiently observe pilots with multiple
  training failures because it diverted attention from the remedial training
  program to handle an influx of new hire pilots. Eight of 15 pilots we reviewed
  who were in the remedial program had failed consecutive proficiency checks.
  However, none of the eight had received additional observations as prescribed
  by the remedial program. This oversight gap was widened because the local
  FAA office did not observe a majority of the re-testing that occurred after the
  second proficiency check failure. We found that FAA observed only four of
  those eight pilots following their second evaluation failure. Two of the four
  pilots failed the third proficiency check while being observed by FAA
  inspectors, and elected to surrender any advanced licenses and aircraft type
  ratings. 10 However, they were re-issued a commercial certificate instead of
  being re-examined by FAA to determine their competency, 11 which enabled
  both pilots to return to training with the airline as first officers.

FAA Has Yet To Fully Implement Initiatives To Improve and Oversee
Pilot Training Programs
FAA’s Call to Action Plan on Airline Safety and Pilot Training, launched in 2009,
included key initiatives such as issuing a final rule on crew training, and
establishing programs for mentoring and professionalism. These initiatives, while

9
     14 CFR 121.438: Pilot Operating Limitations and Pairing Requirements.
10
     A type rating is an addition to a pilot certificate which qualifies the pilot to fly a specific aircraft make and model. It
     requires additional training beyond the scope of initial licensure. In the United States, this applies to aircraft heavier
     than 12,500 lbs, having a passenger capacity of more than 9, or being jet propelled.
11
     Also known as a 709 ride, as outlined in USC Title 49 Section 44709.
                                                                                                                      9


ongoing, were not completed during Call to Action and subsequently became
requirements under the Airline Safety and FAA Extension Act of 2010 (Airline
Safety Act). 12 In February 2010, our office testified before the House
Subcommittee on Aviation and reported that FAA missed milestones in its Call to
Action Plan, and had still not implemented initiatives with the greatest potential to
improve safety. As of October 2011, significant safety initiatives remain
incomplete, as shown in Table 3.

Table 3. FAA Progress on New Safety Initiatives
Initiative                                            Status
Enhance Pilot Training Requirements
Establish new requirements for traditional            FAA issued a Notice of Proposed Rulemaking
air carrier safety training programs—such             (NPRM) in January 2009—5 months prior to the Call
as a complete flight crew training                    to Action Plan. The proposed rule received over
environment, flight simulator devices, and            3,000 pages of comments necessitating a
new special hazard practices for pilots               supplemental notice to address stakeholder
and crew members—and for new                          concerns, which was issued on May 20, 2011. The
practices in Crew Resource                            Airline Safety Act requires a final rule to be issued by
                13
Management.                                           October 1, 2011; however, FAA has yet to complete
                                                      this action.
Air Carrier Remedial Training Programs
In June 2009, FAA instructed all Part 121             The guidance expired on December 31, 2009, and
principal operations inspectors to perform            inspectors are currently not required to evaluate
special inspections to validate air carrier           remedial training programs as part of their routine
flight crewmember training and                        surveillance. The Airline Safety Act requires FAA to
qualification programs met regulations.               issue a rule mandating Part 121 air carriers to
Additionally, FAA asked inspectors to                 establish remedial training programs. The Agency
ensure that air carriers had the capability           has since included this provision in the new pilot
to identify, track, and manage low-time               training program rulemaking mentioned above.
pilots, as well as those who have failed
training or evaluation events.
Pilot Records
FAA committed to work with Congress to                The Airline Safety Act requires FAA to establish and
pursue appropriate amendments to the                  maintain an electronic pilot records database of
Pilot Records Improvement Act of 1996                 pertinent information from FAA, air carrier, and other
(PRIA) to enhance the records review                  records (including the National Driver Register) that
process by which air carriers receive                 an air carrier can access and evaluate before an
information on new hire pilots.                       individual begins service as a pilot. FAA is in the
                                                      early stages of developing the database; however, it
                                                      faces challenges in addressing new requirements for
                                                      data retention and storage, as well as
                                                      implementation costs.




12
     Airline Safety and Federal Aviation Administration Extension Act of 2010, Pub. L. No. 111–216, August 1, 2010.
13
     Crew Resource Management training focuses on leadership and decision making in the cockpit.
                                                                                                               10


Initiative                                          Status
Seek Industry Comments on Promoting Professionalism
Establish and support professional                  FAA has not developed guidelines for cockpit
standards and ethics committees to                  discipline and pilot professionalism. NTSB cited a
develop peer audit and review                       lack of professionalism in its investigation of the
procedures, and to elevate ethics and               Colgan accident when it determined that the crew
professional standards.                             violated “sterile cockpit” rules, requiring that pilots
                                                    refrain from personal conversations during taxi,
                                                    takeoff, or landing. The air carriers we visited
                                                    revealed that discussions of professionalism are
                                                    most often covered in leadership and command
                                                    training offered to first officers being promoted to
                                                    captains.
Work With Industry To Create Mentoring Programs
Share best practices among air carriers to          To date, FAA has not released a detailed plan to
enhance professionalism, such as                    implement flight crew mentoring programs. Regional
establishing mentoring programs for flight          air carriers we reviewed were not pursuing mentoring
crews.                                              opportunities, and expressed concern that a
                                                    mentoring program would have to be scaled to fit
                                                    their business model, and that pilot turnover lowered
                                                    incentive to establish the sometimes costly
                                                    programs. In contrast, at one mainline carrier we
                                                    visited, chief pilots meet regularly with new first
                                                    officers during the first year to discuss performance
                                                    in the cockpit. With a more stable workforce, mainline
                                                    carriers have a greater motivation to establish a
                                                    mentoring program. Mentoring and Professional
                                                    Development Programs were also included in the
                                                    Airline Safety Act and FAA has until August 2013 to
                                                    develop the framework and issue a final rule.


At the request of the ranking members of the House Committee on Transportation
and Infrastructure and Subcommittee on Aviation, we have initiated a review of
FAA’s and industry’s efforts to enhance safety since the Colgan accident—with
the Airline Safety Act being a key piece of that evaluation. 14

FAA Has Yet To Fully Prepare for Air Carriers’ Shift to Data-Driven
Pilot Training Programs
Currently, while more than 75 percent of all part 121 pilots are being trained under
AQP, FAA still faces significant challenges as a growing number of regional air
carriers are transitioning to this program. For example, even though FAA must
approve an air carrier’s AQP before it can fully implement the program, inspectors
are not required to receive training on AQP before granting program approval. As
a result, air carriers seeking to adopt this more data-driven approach may face

14
     On May 19, 2011, the OIG announced a followup review on FAA and Industry Efforts To Enhance Airline Safety in
     Response to the Colgan Air Accident. The announcement letter can be found on our Web site at
     http://www.oig.dot.gov/.
                                                                                                            11


lengthy lead times in converting to AQP because inspectors are overseeing
programs for which they have not been trained.

Since 1994, air carriers have used AQP to train pilots, and more recently expanded
AQP training to include dispatchers and flight attendants. Over the past 2 fiscal
years, AQP pilot training among air carriers increased from 17 to 28; AQP training
for pilots, flight attendants, and dispatchers almost doubled (see Figure 3).
Regional air carriers account for all new AQP training in fiscal year 2010. FAA
officials responsible for AQP oversight and several air carriers attributed the
increase in AQP to FAA’s introduction of a proposed rulemaking on crewmember
training in early 2009. 15

Figure 3. Adoption of AQP Training by Part 121 Air Carriers
     50
     45
     40
     35
     30
     25
     20
      15
     10
       5
       0
            First  Second   Third  Fourth   First  Second   Third  Fourth
           Quarter Quarter Quarter Quarter Quarter Quarter Quarter Quarter

                    Fiscal Year 2009                              Fiscal Year 2010
              AQP Programs Involving Pilots Only
              AQP Programs for Pilots, Flight Attendants and Dispatchers

Source: OIG analysis of FAA data

AQP is tailored to the needs of individual carriers and is adaptable to the skill
level of each pilot. For example, every AQP pilot receives baseline pre-testing
before receiving instruction, which allows the carrier to gauge the pilot’s level of
proficiency, and target its training to specific areas of need. Despite these
complexities, FAA has not ensured it has sufficient resources to oversee carriers’
AQP programs. At the national level, FAA has seven inspectors who oversee an
average of four pilot AQP training programs; however, each of these seven
inspectors are also responsible for overseeing an additional 30 voluntary safety


15
     Qualification, Service, and Use of Crewmembers and Aircraft Dispatchers, 74 Fed. Reg. 1280 (Jan. 12, 2009),
     Docket Number: FAA-2008-0677.
                                                                                                                          12


programs. 16 To balance their workload, some inspectors were forced to reduce
their AQP oversight responsibilities. For example, one inspector’s AQP workload
has been cut from four air carriers to two in order to focus on supporting
integration of FAA’s new Safety Management Systems (SMS) 17 and Safety
Assurance Systems (SAS) 18 initiatives. 19 One inspector will be relinquishing all
AQP certificate oversight to focus solely on oversight of another program.

At the same time, FAA has not provided sufficient or timely training on AQP’s
advanced concepts, such as how to review carriers’ risk assessments and training
decisions, which are based on comparisons between operational and AQP-
generated training data. One FAA operations supervisor we interviewed did not
receive formal FAA instruction on how to oversee AQP programs until more than
8 months after approving his carrier’s transition to AQP. At one FAA oversight
office, we found that three operations inspectors assigned to oversee the air carrier
had not received any AQP training.

FAA CAN DO MORE TO ENSURE AIR CARRIERS HAVE FULL
ACCESS TO ALL INFORMATON ON NEW HIRE PILOTS
Between fiscal years 2009 and 2010, air carrier requests for full airman files
increased from 81 to 1,768—more than 20 times as many requests. During the
same period, requests for notices of disapproval 20 more than tripled—from 29 to
96 requests. Despite these increases, air carriers may lack the information needed
to evaluate the competence and qualifications of applicant pilots—largely because
FAA lacks an effective process to provide carriers with pilot record data.

Under a Pilot Records Improvement Act (PRIA) 21 request, air carriers receive
basic certificate and medical information, closed FAA enforcement actions, and
training records from past employers over the previous 5 years. However,
information on accidents and incidents and open enforcement data must be
requested separately under the Privacy Act or the Freedom of Information Act
(FOIA) (see Table 4), and would only include cases FAA investigated.

16
     Other voluntary programs include Voluntary Disclosure Reporting Program (VDRP), which provides incentives for
     air carriers or other eligible FAA-regulated entities to voluntarily identify, report, and correct instances of regulatory
     noncompliance; Line Operations Safety Audit (LOSA), which uses highly trained observers to collect data about
     flight crew behavior and situational factors on “normal” flights; Internal Evaluation Program, which provides air
     carrier management insight regarding potential problem areas before non-conformance occurs; FOQA; and ASAP.
17
     An organized approach to managing safety, including the necessary organizational structures, accountabilities,
     policies, and procedures.
18
     The FAA Flight Standards (AFS) Safety Assurance System—the combination of people, processes, and technology
     that will become the new oversight system for 14 CFR Parts 121, 135, and 145 in 2013.
19
     Since the completion of our review, FAA reported that the inspector previously focusing on SMS was reassigned to
     AQP duties.
20
     A notice of disapproval is provided to an airman when they fail to satisfactorily complete a flight test (i.e.,
     instrument rating, flight instructor, or airline transport pilot certificate).
21
     Pub. L. No. 104-264, Section 502 (codified at 49 U.S.C. § 44703(h)-(j)).
                                                                                    13


Table 4. FAA Airman Data Available Through Air Carrier Requests
                                                      PRIA      Privacy Act   FOIA

Airman Certificate / Medical Certificate                

Closed Enforcement Action                                                     

Open Enforcement Action (Limited Information Only)                             

Accident / Incident Information                                                

FAA Inspector Surveillance Comments                                             


FAA’s Call to Action Plan requested that pilot applicants voluntarily disclose their
FAA records, which includes data on notices of disapprovals. As a result, 7 of the
18 carriers we visited now receive this information, compared to only 2 prior to
the February 2009 Colgan accident. FAA concluded that it had achieved its
intended outcome with this initiative; however, we found 34 of the 80 commercial
air carriers that responded to FAA’s Call to Action had not changed their
policies—20 of which committed but had not developed polices to ask pilot
applicants for FAA records and notices of unsatisfactory events.

While air carriers that implemented new policies now have more robust pilot
information, the Agency’s procedures for providing the information to air carriers
are unwieldy and complicate the goal of providing full disclosure. Currently, air
carriers must contact two separate FAA offices to obtain background information
on a pilot’s qualifications, experience, and safety record. In addition, air carriers
may not receive complete airman files—which contain certificate information,
enforcement actions, notices of disapprovals, and knowledge test results—
depending on which of FAA’s two request forms they use. Further, neither form
includes FAA inspector surveillance comments on a pilot’s past performance.
Instead, air carriers need to specifically ask for these records.

CONCLUSION
FAA’s 2009 Call to Action Plan was an immediate and focused measure to
improve airline safety. While air carriers have responded to the plan’s initiatives to
identify and implement safety improvements impacting pilot performance, FAA
has yet to provide the level of oversight needed to identify and track poor
performing pilots and ensure air carriers have the information needed to hire
qualified pilots. Until FAA takes a more active role in evaluating pilots and air
carrier training programs and provides air carriers full access to pilot information,
it cannot be assured that air carriers will maintain momentum in advancing these
important initiatives.
                                                                                14


RECOMMENDATIONS
We recommend that FAA:

 1)   Require inspectors to select a representative sample of air carrier
      proficiency and line check rides each year to analyze the results for trends,
      and take action if needed in accordance with FAA guidance.

 2)   Renew authority of check airmen every 2 years to increase accountability in
      the system and improve consistency in the manner in which flight checks
      are conducted and rated.

 3)   Develop a standardized procedure for air carriers to report failures of pilot
      proficiency checks as well as remedial and recurrent flight training to FAA,
      and require inspectors to monitor trends and target surveillance to highest
      risk areas.

 4)   Develop and implement standardized training for aviation safety inspectors
      on Part 121 air carrier pilot performance and administration of check rides
      and check airman observations.

 5)   Conduct a study of air carrier policies to determine whether controls should
      be in place to prevent pilots in remedial training programs from being
      paired together.

 6)   Require inspectors at the certificate level to be fully trained on AQP before
      approving and overseeing these programs. Ensure that FAA’s Voluntary
      Safety Program Branch (AFS 230) has adequate resources for overseeing
      AQP.

 7)   While developing the Pilot Records Database, verify that staff in the offices
      of Airmen Certification and Aviation Data Systems can continue to manage
      the increased workload caused by enhanced records requirements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on October 6, 2011, and received its
response on November 28, 2011. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred or partially concurred with all of our
recommendations. Based on FAA’s response, we consider recommendations 4 and
5 resolved but open pending completion of planned actions. We consider
recommendation 6 resolved and closed. However, we are concerned that FAA’s
                                                                                 15


responses did not meet the intent of recommendations 1, 2, 3, and 7 as detailed
below.

For recommendation 1, FAA suggested we close this recommendation due to
current guidance that outlines inspector responsibilities for overseeing check
airmen. However, the guidance cited in FAA’s response does not meet the intent
of our recommendation to enhance oversight of pilot training. The guidance
requires biennial observations of check airmen, which in our view are too
infrequent for FAA to rely on to detect training program deficiencies.
Additionally, although not specifically cited in FAA’s response, the same
guidance requires inspectors to compare pilot checks that they have performed
against those performed by check airmen. However, we question the viability of
this requirement since the majority of proficiency checks on air carrier pilots are
conducted by check airmen, not FAA inspectors. As a result, FAA inspectors may
not have sufficient data to make a meaningful comparison. At the air carriers we
visited, we were unable to determine whether this analysis was being performed.
In order to verify the extent to which inspectors are currently performing this
comparative analysis, we request that the Agency provide us with a summary of
proficiency or line checks conducted by FAA inspectors over the past 5 years at
the 18 air carriers we visited, as well as documentation showing that inspectors
compared these results to those completed by check airmen. Accordingly, we
consider recommendation 1 open and unresolved pending receipt of this
information.

For recommendation 2, FAA partially concurred and proposed actions that are
responsive, in part, to the intent of our recommendation. However, in its response,
the Agency asserted that “every check airman must be observed by the FAA while
conducting his or her approved checking activity at least once every two years.”
During the course of our audit, we found that FAA can delegate the responsibility
for these observations to the air carrier. We believe that accountability and
consistency would be enhanced if a significant percentage of these observations
were conducted by FAA inspectors, rather than air carrier employees. To better
assess FAA efforts in this area we are requesting that FAA provide data on the
number of check airman observations performed by FAA inspectors at the
18 carriers we visited over the past 5 years. Accordingly, we consider
recommendation 2 open and unresolved pending receipt of this information.

For recommendation 3, FAA did not address the intent of our recommendation to
develop a standardized process for air carriers to report failures of pilot
proficiency checks as well as remedial and recurrent flight training failures to the
Agency. FAA noted that its guidance requires air carriers to report failure rates
and maintain records of failed events. These pass/fail reports are useful to analyze
the evaluations of check airmen, but because the reports are cumulative and do not
                                                                                   16


track repetitive failures by pilots, they lack the specificity necessary to detect
problems in pilot performance. FAA would be better equipped to target
surveillance of poor performing pilots by standardizing a process for reporting
failures consistently among air carriers. This would include adding a measure for
carriers to alert FAA to remedial and recurrent pilot flight training failures. In its
response, FAA makes note of a pending rule, “Qualification, Service, and Use of
Crewmembers and Aircraft Dispatchers,” which would require air carriers to
develop remedial training programs. However, FAA does not indicate whether
failures that occur within remedial training would be reported to FAA.
Accordingly, we consider recommendation 3 open and unresolved and request that
the Agency reconsider its position.

For recommendation 7, FAA did not provide a strategy for ensuring that personnel
can manage increased requests for pilot records. Instead, the Agency summarized
its efforts and challenges to develop the pilot records database as required by the
Airline Safety and Federal Aviation Administration Extension Act of 2010. We
agree that the database, when implemented, will provide carriers with a new
method for requesting pilot records. However, in addition to current requirements
to obtain information on a newly hired pilot’s training, experience, qualification,
and safety background, air carriers are expected to obtain proficiency data and
practical test results from FAA. Considering the launch of the database is several
years away, FAA should, in the interim, ensure that staff in the offices that process
pilot records requests can manage an increased workload. Accordingly, we
consider recommendation 7 open and unresolved and request that the Agency
reconsider its position.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 4 and 5 are responsive and we
consider these recommendations resolved but open pending completion of the
planned actions. We consider recommendation 6 resolved and closed. For
recommendations 1, 2, 3, and 7, we request that FAA provide, within 30 days of
this report, additional information or reconsider its position. Specifically, for
recommendation 1, we request that FAA provide a summary of proficiency or line
checks conducted by FAA inspectors and evidence that inspectors compared these
results to those completed by check airmen. For recommendation 2, we request
that FAA provide data on the number of check airman observations performed by
FAA inspectors. For recommendations 3 and 7, we request that the Agency submit
a revised response to meet the intent of our recommendations.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.
                                    17


                                #

cc: Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                               18


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from October 2009 through October 2011 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

To assess FAA oversight of Pilot Training and Regional Airlines, we met
with FAA officials at FAA headquarters responsible for the application of
both FAA required training (“traditional”) and Advanced Qualification
Programs (AQP). We visited 15 of the top 50 regional air carriers and 3 of
10 mainline air carriers along with their respective FAA oversight offices.
The business models of the selected carriers aligned closely with the nature
of the Congressional request. We met with a part 142 flight training center
that provides contracted aircraft simulator training and equipment use for
commercial air carriers.

We also met with representatives of the Air Transport Association (ATA),
Regional Airline Association (RAA), and the Air Line Pilots Association
(ALPA) to obtain their input regarding the quality of pilot training and
professionalism as well as the effectiveness of FAA oversight.

To determine the process and data FAA and air carriers use to evaluate the
competence and qualifications of pilots when they are hired, we
interviewed FAA personnel in Oklahoma City, OK, responsible for pilot
record keeping.




Exhibit A. Scope and Methodology
                                                                 19


EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Federal Aviation Administration (FAA)
Headquarters:
Flight Standards Service                      Washington, DC

Certificate Management Offices (CMO):
Delta Air Lines CMO                           Hapeville, GA
Rocky Mountain CMO                            Denver, CO
AMR CMO                                       Ft. Worth, TX
Southwest Airlines CMO                        Dallas, TX
Alaska Airlines CMO                           SeaTac, WA
Denali CMO                                    Anchorage, AK
Portland CMO                                  Hillsboro, OR

Flight Standards District Offices (FSDO):
Indianapolis FSDO                             Plainfield, IN
St. Louis FSDO                                St. Ann, MO
Memphis FSDO                                  Memphis, TN
Washington FSDO                               Herndon, VA
Dallas - Ft. Worth FSDO                       Ft. Worth, TX
Baltimore FSDO                                Glen Burnie, MD

Regional Air Carriers
Republic Airlines                             Indianapolis, IN
Chautauqua Airlines                           Indianapolis, IN
Shuttle America                               Indianapolis, IN
Trans States Airlines                         St. Louis, MO
GoJet Airlines                                St. Louis, MO
Pinnacle Airlines                             Memphis, TN
Colgan Air                                    Memphis, TN
Piedmont Airlines                             Salisbury, MD
Great Lakes Airlines                          Cheyenne, WY
Mesa Airlines                                 Phoenix, AZ
Freedom Airlines                              Mesa, AZ
American Eagle Airlines                       Ft. Worth, TX
Horizon Air                                   Portland, OR
PenAir                                        Anchorage, AK
ERA Aviation                                  Anchorage, AK




Exhibit B. Acti vities Visited or Contacted
                                                                   20


Mainline Air Carriers
Delta Air Lines                                   Atlanta, GA
Southwest Airlines                                Dallas, TX
Alaska Airlines                                   Seattle, WA

Part 142 Flight Training Facility
FlightSafety International                        St. Louis, MO

Other Industry Representatives or Organizations
Air Line Pilots Association (ALPA)                Herndon, VA
Regional Airline Association                      Washington, DC
Air Transport Association                         Washington, DC




Exhibit B. Acti vities Visited or Contacted
                                                                 21


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Tina Nysted                             Program Director

Gloria Denmark                          Project Manager

Marshall Jackson                        Project Manager

Travis Wiley                            Project Manager

Stefanie McCans                         Senior Analyst

Curt Boettcher                          Senior Analyst

Marshall Anderson                       Analyst

Karen Sloan                             Communications Officer

Andrea Nossaman                         Writer/Editor

Audre Azuolas                           Writer/Editor




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                22




                    Federal Aviation
                    Administration

Memorandum
Date:
To:         Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
            Programs
From:       H. Clayton Foushee, Director, Office of Audit and Evaluation (AAE-1)
Subject:    Office of Inspector General (OIG) Draft Report: New Approaches are
            Needed to Strengthen FAA Oversight of Air Carrier Training Programs and
            Pilot Performance (09A3008A000)


Following the Colgan accident, air carrier and pilot performance issues have been the
subject of considerable public scrutiny, and the assessment of regulatory enhancements to
improve the safety margin has been a top priority of the Federal Aviation Administration
(FAA). FAA has undertaken a number of rulemaking projects to address air carrier
training programs and pilot performance. FAA is committed to improving its oversight
of the air transport industry and will allocate the resources necessary to ensure that these
safety enhancements are implemented.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Require inspectors to select a representative sample of air carrier
proficiency and line check rides each year to analyze the results for trends, and take
action if needed in accordance with FAA guidance.

FAA Response: Concur. This requirement is in place and is described in the FAA
Order 8900.1, Volume 3, Chapter 20, Section 2, paragraph 3-1433, “Surveillance of
Check Airmen.” This guidance was implemented in March 2009 during the course of the
OIG audit. The new guidance requires FAA inspectors to conduct observations of check
airmen performing proficiency and line checks for all air carriers. From these
representative samples of inspector observations of proficiency and check rides, FAA
Certificate Management Offices analyze trends and ensure compliance with the
regulatory requirements.

Surveillance includes an evaluation of the air carrier’s process measurements, including
its ability to identify concerns and take corrective actions to address them. The Air
Carrier Training and Part 142 Training Center Branch (AFS-210) will coordinate with the
Flight Standards Quality Assurance Division (AFS-40) to ensure the policy is applied
APPENDIX. AGENCY COMMENTS                                                                 23

uniformly across FAA field offices. Accordingly, we request that this recommendation
be closed.


Recommendation 2: Renew authority of check airmen every 2 years to increase
accountability in the system and improve consistency in the manner in which flight
checks are conducted and rated.

FAA Response: Partially Concur. In March 2009, FAA developed a check airman
surveillance program that requires the regular monitoring of check airman activity.
Before the FAA issues a letter of authorization to allow an individual to be a check
airman, the FAA inspector responsible for oversight of the check airman is required to
establish a surveillance program to monitor the performance of the check airman in
accordance with FAA Order 8900.1, Volume 3, Chapter 20, Section 2, paragraph 3-1433
“Surveillance of Check Airmen.”

Under this surveillance program, every check airman must be observed by the FAA while
conducting his or her approved checking activity at least once every two years. In
addition to these observations, the operator must submit a periodic report to its Principal
Operations Inspector (POI) outlining the check airman’s checking activities, including
pass/fail rates during that period. The air carrier provides this report to coincide with the
POI’s surveillance of a check airman. Based upon a review of this periodic report and
the FAA observation of the check airman, a check airman’s authorization may be
withdrawn by the POI at any time for the following reasons: 1) unsatisfactory
performance; 2) lack of checking activity; or 3) at the request of the operator.

Because this activity is monitored at the POI level, and most documentation of approvals
were kept in hard copy at the time the OIG audit began, the FAA was not able to
accurately capture data on check airman authorizations and terminations. The FAA has
since modified the Program Tracking and Reporting System to capture these data.

In addition, a major redesign of the enhanced Vital Information Database (eVID) system
has been completed and is in the test phase. This system will allow for each check
airman letter of authorization to be completed electronically and stored on a national
database that will allow for data retrieval and mining as necessary. We anticipate that the
test phase will be accomplished by the first quarter of 2012 and that eVID will be
implemented by the second quarter of 2012.

As a result of the enhanced surveillance program for check airmen, which requires every
check airman to be evaluated every two years, and the data collection requirements that
have been developed and are being implemented, FAA does not believe it is necessary to
“renew” check airmen authorizations every two years. FAA believes the intent of the
OIG recommendation has been met through the development and implementation of the
new surveillance program and requests that this recommendation be closed.
APPENDIX. AGENCY COMMENTS                                                                   24

Recommendation 3: Develop a standardized procedure for air carriers to report failures
of pilot proficiency checks, as well as remedial and recurrent flight training to FAA, and
require inspectors to monitor trends and target surveillance to highest risk areas.

FAA Response: Concur. FAA Order 8900.1, Volume 3, Chapter 20, Section 2,
paragraph 3-1433 “Surveillance of Check Airmen” requires that air carriers report failure
rates and maintain records of failed events. That order ensures that each certificate
holder maintains a standardized procedure, acceptable to the FAA, for reporting pilot
failures on proficiency checks to the FAA, as well as a requirement for the provision of
remedial and recurrent training.

Air carriers with an approved Advanced Qualification Program (AQP) training program
are required to have implemented a comprehensive trend analysis process. Section
121.917 (c) requires air carriers with an AQP program to have data collection and
analysis processes acceptable to the FAA that will ensure the certificate holder provides
performance information on its crewmembers, dispatchers, instructors, evaluators, and
other operations personnel to enable the certificate holder and the FAA to determine
whether the form and content of training and evaluation activities are satisfactorily
accomplishing the overall objectives of the curriculum. Performance data provided by the
certificate holder to the FAA is analyzed at POI level to determine targeted surveillance
priorities.
The FAA intends to similarly address air carriers without an AQP training program when
it issues the final rule associated with the Supplemental Notice of Proposed Rule Making
(SNPRM) entitled Qualification, Service, and Use of Crewmembers and Aircraft
Dispatchers. In its SNPRM, the FAA proposed to require a continuous analysis process
(CAP), which will require an air carrier to identify and correct deficiencies in their
training programs. The SNPRM proposed notification and appeal procedures to ensure
that any changes to the CAP were approved by the FAA.

This rulemaking effort also has a requirement for air carriers to develop remedial training
programs for pilots who are not able to demonstrate proficiency. The comment period
for the SNPRM closed on September 19, 2011. The FAA is in the process of reviewing
the comments and developing a final rule.

Recommendation 4: Develop and implement standardized training for aviation safety
inspectors on Part 121 air carrier pilot performance and administration of check rides and
check airman observations.

FAA Response: Concur. The Flight Standards Training Division (AFS-500), in
coordination with the Flight Standards Air Transportation Division (AFS-200), is
developing a training course titled “Aviation Safety Inspector (ASI) Training in the
Conduct of Airman Testing and Checking in Simulators.” The purpose of this training
course is to provide ASI standardization in the conduct of air carrier airman testing and
checking in simulators. This course is scheduled for deployment at the FAA Training
Academy by December 31, 2012.
APPENDIX. AGENCY COMMENTS                                                                25

Recommendation 5: Conduct a study of air carrier policies to determine whether
controls should be in place to prevent pilots in remedial training programs from being
paired together.

FAA Response: Partially Concur. The FAA shares the OIG’s concern with pilots in
need of remedial training being paired. In lieu of a study to determine if controls are
either needed or feasible, the FAA has recently published a SNPRM, entitled
Qualification, Service, and Use of Crewmembers and Aircraft Dispatchers, which will
require air carriers to develop approved procedures for managing pilots identified as
needing remedial training, and these programs could contain specific policy guidance on
the pairing of “low performing pilots.” FAA is currently reviewing the public comments
to this SNPRM and will take this recommendation under advisement during the
development of the final rule. The agency believes that this rulemaking project will serve
the same purpose as the recommended study and produce a more definitive outcome.
FAA anticipates publishing this rule by August 2013.

Recommendation 6: Require inspectors at the certificate level to be fully trained on
AQP before approving and overseeing these programs. Ensure that FAA’s Voluntary
Safety Program Branch (AFS-230) has adequate resources for overseeing AQP.

Since these are two separate recommendations, the FAA has addressed each in sequence
as “Part A” and “Part B.”

Part A: Require inspectors at the certificate level to be fully trained on AQP before
approving and overseeing these programs.

FAA Response: Concur. FAA now provides both formal and informal AQP training
prior to involvement in training program approval. Formal training is provided as a
three-day classroom course conducted by personnel from the Flight Standards Voluntary
Safety Programs Branch, AFS-230. For those inspectors who are unable to register in
time for the formal course prior to the need for such training, AFS-230 personnel
routinely travel to field offices to conduct field AQP training, using the same course
materials.

Formal training for all inspectors was not always possible in the past because of a large
increase in new AQP applications, making it difficult to schedule formal training for all
inspectors. That increased demand has now subsided. For example, in FY 2011 the
formal Training Needs Assessment (TNA) conducted by AFS-500 showed a need for five
formal classes, and those classes were provided. The TNA conducted for FY 2012
showed a need for only 2 classes.

AQP approval and oversight is a collaborative process conducted by an Extended Review
Team (ERT). All AQP approvals are made jointly by an ERT, which consists of field
and AFS-230 personnel. AFS-230 provides assistance to the Flight Standards District
Offices, Certificate Management Offices, or Certificate Management Units from initial
application through the final approval. AFS-230 provides assistance in the development,
APPENDIX. AGENCY COMMENTS                                                                  26

implementation, and review, as well as follow-on reviews of the certificate holder’s
AQPs. Every field office is partnered with an AFS-230 inspector who works with that
office throughout the life of the AQP. All training documentation and data that are
submitted to the field office for review are simultaneously submitted to AFS-230.

FAA believes that the above-described process meets the intent of the recommendation
and requests that this recommendation be closed.

Part B: Ensure that FAA’s Voluntary Safety Program Branch (AFS-230) has adequate
resources for overseeing AQP.

FAA Response: Concur. FAA reviews its aviation inspector workforce annually to
ensure that FAA’s Voluntary Safety Program Branch (AFS-230) has adequate resources
for overseeing all approved AQPs. AFS-230 is staffed and budgeted based upon
workload and has adopted a staffing model consisting partially of remotely-sited
inspectors. This reduces travel time and will allow a better allocation of AFS-230
resources.

In addition, new rule changes will shift oversight assignments for the many of the current
voluntary safety programs. This change will relieve AFS-230 inspectors of some of their
previous oversight responsibilities and provide them with more time to focus on AQP.
The implementation of the Safety Management System (SMS) rule will replace the
current Air Transportation Oversight System (ATOS) with a new system, the Safety
Assurance System (SAS). This new oversight system will transfer oversight
responsibilities from AFS-230 to field inspectors for the Aviation Safety Action Program
(ASAP) and Flight Operational Quality Assurance Program (FOQA). This change will
free AFS-230 inspector workforce resources to concentrate more on AQP. Thus, FAA
requests that this recommendation be closed.

Recommendation 7: While developing the Pilot Records Database, verify that staff in
the offices of Airman Certification and Aviation Data Systems can continue to manage
the increased workload caused by enhanced records requirements.

FAA Response: Concur. There are concerns about the potential for increases in
inspector workload as a result of new Pilot Record Database (PRD) reporting
requirements. This is especially true if the agency is burdened with the responsibility of
converting records of various formats; or if a labor intensive, paper-based exchange of
records is accommodated. FAA intends to pursue alternatives to alleviate this potential
problem.

The PRD sponsor, Flight Standards Regulatory Support Division (AFS-600), has
included the Airman Certification office as well as the Aviation Data Systems Branch on
the planning team that is gathering requirements for the PRD. The current system design
relies on the electronic submission of records from air carriers and other entities that will
be required to submit pilot records. The design also allows for two methods of electronic
submission: 1) automated submission for large air carriers and those with sophisticated
APPENDIX. AGENCY COMMENTS                                                                27

electronic record systems; and 2) a web-based portal for small air carriers or “others” that
may not generate many records. The FAA believes it has met the intent of this
recommendation and requests that it be closed.
